Audit of USAID’s Compliance with Federal
Regulations in Awarding the Contract for
Security Services in Iraq to Kroll Government
Services International Inc.
Audit Report Number A-267-05-005-P
January 6, 2005




                  Washington, D.C.
                   OFFICE OF INSPECTOR GENERAL




January 6, 2005


MEMORANDUM

FOR:           M/OAA/OD, Michael F. Walsh
               DCFO, David Ostermeyer
               SEC/OD, Harry Manchester, Jr.

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT:       Audit of USAID’s Compliance with Federal Regulations in
               Awarding the Contract for Security Services in Iraq to Kroll
               Government Services International Inc.
               (Report No. A-267-05-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included them
in their entirety as Appendix II.

The report contains four recommendations for corrective action. Based on your
comments to our draft report, we consider that management decisions have been
reached for Recommendation Nos. 1, 2, 3 and 4. For these recommendations,
please notify the Bureau for Management’s Office of Management Planning and
Innovation when final action is completed.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during this audit.

cc:    USAID/Iraq, Mission Director, James E. Stephenson
       CFO, Lisa Fiely
       ANE/AA, James R. Kunder
       ANE/IR, Peter Amato




                   1300 PENNSYLVANIA AVE ., NW
                     WASHINGTON, DC 20523
(This page intentionally left blank)




                                       2
Table of   Summary of Results................................................................................................ 5
Contents
           Background ............................................................................................................. 5

           Audit Objective ....................................................................................................... 7

           Audit Findings ........................................................................................................ 7

                      Did USAID comply with federal regulations in awarding the
                      Iraq security services contract? ................................................................... 7

                                 Inadequate Documentation For Selection Of Kroll
                                 As Security Services Contractor ..................................................... 7

                                 Letter Contract Did Not Meet FAR Requirements ......................... 9

                                 Potential Funds Control Violations............................................... 11

                                 Armored Vehicles Purchased That Do Not Meet
                                 U.S. Government Standards.......................................................... 13

           Evaluation of Management Comments................................................................. 15

           Appendix I – Scope and Methodology ................................................................. 17

           Appendix II – Management Comments ................................................................ 19




                                                                                                                                   3
(This page intentionally left blank)




                                       4
Summary of   The Information Technology and Special Audits Division of the Office of
             Inspector General in Washington, D.C. has completed an audit to determine
Results
             whether the U.S. Agency for International Development (USAID) complied with
             federal regulations in awarding a contract for security services in Iraq.
             Specifically, USAID: (1) did not adequately document the use of less than full
             and open competition or explain its contractor choice, (2) obtained security
             services using a letter contract that did not meet Federal Acquisition Regulation
             (FAR) requirements, (3) incurred multiple potential funds control violations, and
             (4) purchased armored vehicles that did not meet U.S. Government armoring
             standards. (See page 7).

             USAID did not adequately document its use of sole source procurement or its
             selection of Kroll Government Services International Inc. (Kroll) to provide
             security services for USAID/Iraq. Also, USAID obtained security services for
             USAID/Iraq for a seven- month period using a letter contract that did no t meet
             FAR requirements. (See page s 7-11).

             USAID incurred multiple potential funds control violations in connection with
             obtaining security services from Kroll that require review and resolution by
             USAID’s Deputy Chief Financial Officer. (See pages 11-13).

             Finally, USAID purchased 14 armored vehicles through the Kroll contract that did
             not meet U.S. Government armoring standards and there was no documentation to
             support the $1.9 million cost of the vehicles. (See pages 13-15).

             In its response to our draft report, USAID management agreed overall with
             Recommendation Nos. 1, 2, 3 and 4. Thus, management decisions have been
             reached on all four recommendations. (See page 15). Management comments are
             included in their entirety in Appendix II. (See pages 19 and 20).


Background   In August 2003, USAID officials took steps to obtain security services for its
             personnel and facilities in Iraq—including the purchase of 17 vehicles (14 of them
             armored)—after multiple attacks on Mission staff. Using other than full and open
             competition as authorized under a blanket approval granted by the USAID
             Administrator for activities and programs initiated in response to the crisis in the
             Near East, 1 USAID officials in Baghdad selected Kroll Government Services
             International Inc. (Kroll) to provide these services. On August 23, 2003,


             1
               On January 16, 2003, the Office of the USAID Administrator authorized expedited acquisition
             and assistance procedures for activities and programs in response to the crisis in the Near East.
             This authority allowed USAID to award these contracts using other than full and open competition
             requirements in accordance with 40 USC 474. This statutory authority requires the awarded
             contracts to be supported by written justifications and approvals as described in the Federal
             Acquisition Regulation (FAR).


                                                                                                            5
USAID’s Chief Acquisition Officer authorized the use of a letter contract 2 to
Kroll for up to $4.5 million that would allow the contractor to begin immediately
performing services. USAID submitted its proposed letter contract to Kroll for
signature on August 24, 2003 which would have authorized costs of up to $1
million. However, Kroll never signed this letter contract and the letter contract
did not contain most of the required clauses for a letter contract as specified in the
FAR. Despite USAID’s inability to obtain Kroll’s signature or agreement to the
letter contract, on September 1, 2003, a USAID contracting officer in Baghdad
provided Kroll with a letter authorizing Kroll to incur costs of up to $4.5 million.

Over the next seven months, USAID negotiated price and contract terms with
Kroll while Kroll provided the requested security services in Iraq. At Kroll’s
request, USAID agreed to cha nge the contract type from a cost reimbursement
contract—as originally proposed—to a fixed price contract for commercial items.
Responsibility for the negotiations was eventually transferred back to
USAID/Washington. During the period September 1, 2003 to March 31, 2004,
four additional authorizing letters were given to Kroll increasing the amount of
costs that could be incurred to $12.5 million even though Kroll never signed the
letter contract.

Finally, on March 31, 2004, more than seven months after Kroll began providing
services, USAID executed and Kroll signed a $12.1 million fixed price contract
for commercial items, for Kroll to provide facility security and protection services
and vehicles for USAID/Iraq. This action covered the time period August 24,
2003 through March 31, 2004. The following contract modifications increased
the total contract price to $29,742,389 and extended the contract an additional
nine months to December 31, 2004:

         (1) Modification No. 1 awarded on April 19, 2004 for April-May
         2004 for an additional $3,945,328;

         (2) Modification No. 2 awarded on May 27, 2004 for June 2004 for
         an additional $1,822,983; and

         (3) Modification No. 3 awarded on June 28, 2004 for July-
         December 2004 for an additional $11,874,078.




2
  As defined by FAR 16.603, a letter contract is a written preliminary contractual instrument that
authorizes a contractor to immediately begin performing services.


                                                                                                 6
Audit Objective   This audit was conducted by the Office of Inspector General’s Information
                  Technology and Special Audits Division in Washington, D.C. in response to a
                  recent request from the U.S. House Appropriations Subcommittee for Foreign
                  Operations to review all new USAID contracts over $1 million and an earlier
                  request by the USAID Administrator to review the procurement process for all
                  Iraq reconstruction contracts. This audit was designed to answer the following
                  audit objective:

                         Did USAID comply with federal regulations in awarding the
                         Iraq security services contract?

                  Appendix I contains a discussion of the audit scope and methodology.


Audit Findings    For the areas reviewed, USAID did not comply with significant provisions of
                  federal regulations in awarding a contract for security services in Iraq to Kroll
                  Government Services International Inc. Specifically, USAID: (1) did not
                  adequately document or explain its selection of Kroll, (2) obtained security
                  services using a letter contract that did not meet FAR requirements, and (3)
                  incurred multiple potential funds control violations. In addition, USAID
                  purchased 14 armored vehicles through the Kroll contract that did not meet U.S.
                  Government armoring standards and there was no documentation to support the
                  $1.9 million cost of the vehicles.

                  These areas are discussed in detail below.

                  Inadequate Documentation For Selection
                  Of Kroll As Security Services Contractor

                   Summary: USAID officials did not adequately document its use of sole source
                   procurement or explain the selection of Kroll Government Services International
                   Inc. (Kroll) as the contractor to provide security services for USAID/Iraq.
                   Because USAID needed to quickly obtain security services for its employees, the
                   required documentation for its selection of Kroll was lacking. Without
                   documentation, we could not determine whether other potential offerors were
                   competitive or whether the selection of Kroll was in the best interests of the U.S.
                   Government.

                  On January 16, 2003, the Office of the USAID Administrator authorized
                  expedited acquisition and assistance procedures for activities and programs in
                  response to the crisis in the Near East. This authority, under USAID Acquisition
                  Regulation (AIDAR) 706.302-70 (b)(3)(ii), allowed USAID to award these
                  contracts using other than full and open competition requirements in accordance
                  with 40 USC 474. Solicitations for goods and services were still to be made from
                  as many sources as practicable under the circumstances. This authority, however,


                                                                                                    7
is limited by the requirements of AIDAR 706.302-70 (c)(2) that requires the
contract file to include appropriate explanation and support justifying the award
without full and open competition, as provided in FAR 6.303. FAR 6.303-2 states
that the justification shall contain sufficient facts and rationale to justify the use of
the authority and specifies 11 information items that it should include as a
minimum.3

The justification for other than full and open competition for this contract, dated
August 10, 2003, was prepared by the USAID/Iraq executive officer. The
justification contained only 6 of the 11 information items required in FAR 6.303-
2. Important missing information included (1) an explanation why Kroll was
selected over other security services contractors as the best or most suitable
choice for USAID to use as its sole source provider, (2) an explanation describing
whether other firms were considered or any indication whether other firms were
queried about interest in the contract or of their availability to quickly provide
services, and (3) a determination by the contracting officer that the anticipated
cost to the Government would be fair and reasonable. Regarding the selection,
the USAID contracting officer in Iraq handling the procurement at that time
explained that the USAID/Iraq executive officer had already made the
determination that Kroll would provide the services when the justification was
prepared and that deficiencies in the justification were a result of USAID/Iraq’s
desire to quickly acquire security services for its employees. Officials in
USAID’s Office of Security stated the selection of Kroll was made before they
could offer any suggestions or input on choosing a security firm.

USAID officials stated they believed all documentary requirements for the
decision to award sole source to Kroll were met by the USAID Administrator’s
waiver along with the justification prepared in August 2003. They also stated that
the decision to select Kroll could have been better documented.

We believe the cited AIDAR and FAR requirements are clear that USAID’s
waiver to use other than full and open competition for Iraq-related procurements
still requires explanation or support. Without documenting the explanation of the
process for selecting Kroll as the contractor, USAID’s selection of Kroll to be
USAID/Iraq’s security services provider is not fully justified or explained.

        Recommendation No. 1: We recommend that USAID’s Chief
        Acquisition Officer issue a notice reminding all Bureau of
        Management, Office of Acquisition and Assistance personnel
        that adequate and complete documentation must be prepared
        and retained in all procurements when using less than full and
        open competition. This documentation should adequately
        explain the contractor selection and why multiple contractors
        could not or were not considered for the procurement.

3
  AIDAR 706.302-70 (c)(2) eliminates the need to include a twelfth item—the requirement for
contracting officer certification.


                                                                                              8
Letter Contract Did Not Meet
FAR Requirements

    Summary: Contracting officers at USAID/Iraq obtained security services for the
    Mission over a seven-month period using a letter contract that did not meet many
    of the requirements of the FAR. USAID contracting officers opted to
    immediately obtain security services rather than negotiate with another
    contractor after Kroll declined to sign a proposed letter contract prepared by
    USAID. In addition, several clauses required by the FAR for inclusion in letter
    contracts in order to protect Government interests were not included in this letter
    contract. As a result, for seven months and after paying $8 million to the
    contractor, USAID had no binding agreement to ensure the continued presence
    of critical security services for USAID employees in Iraq. USAID officials
    believed that they did not need the contractor’s signature to create a binding
    agreement or could have alternatively cla imed an “implied-in- fact contract” to
    support a judgment for performance if Kroll had ceased providing services.

FAR 16.603 prescribes the use of a “letter contract” as a written preliminary
contractual instrument that authorizes a contractor to immediately begin
performing services. FAR 16.603-2 states that a letter contract may be used when
(1) the Government’s interests demand that the contractor be given a binding
commitment so that work can start immediately and (2) negotiating a definitive
contract is not possible in sufficient time to meet the requirement. FAR 16.603-4
identifies specific clauses to be included in letter contracts to protect the
Government’s interests. In addition, FAR 4.102 (c) requires a contract with a
corporation to be signed by a person with authority to bind the corporation.

On August 11, 2003, USAID selected Kroll under a sole source procurement to
provide security services for USAID/Iraq personnel. By August 22, 2003,
USAID had received technical and cost proposals from Kroll and the next day
USAID’s Chief Acquisition Officer authorized the use of a letter contract to Kroll
for up to $4.5 million.4 A letter contract was prepared and given to Kroll on
August 24, 2003.

Although use of a letter contract was clearly appropriate in these circumstances,
the letter contract that was prepared and the manner in which it was awarded did
not meet many of the requirements of FAR 16.603 and, in our opinion, did not
result in a binding agreement. These problems included:

          •    Kroll officials declined to sign the proposed letter contract as
               required by FAR 4.102 (c). In addition, FAR 52.216-23
               “Execution and Commencement of Work” requires the
               contractor’s signed acceptance and this clause was omitted
               from the letter contract though required by FAR 16.603.
4
    Four subsequent letters of authorization increased the amount to $12.5 million.


                                                                                      9
         •   Additional required clauses at 52.216-24, 25, and 265 were also
             omitted from the proposed letter contract. Although the
             contract does contain information on limiting the
             Government’s liability, it does not cover the requirements of
             the “Contract Definitization” and “Payments of Allowable
             Costs Before Definitization” clauses.

         •   It is questionable that Kroll considered this to be a final letter
             contract. On August 27, 2003, three days after USAID
             “executed” the proposed letter contract and at the suggestion
             of USAID’s contracting officer, a Kroll official forwarded it to
             USAID’s regional legal advisor in USAID/Egypt for
             discussion with suggested changes to the letter contract.
             USAID’s regional lega l advisor—previously not consulted
             about the letter contract—pointed out the absence of the
             required clauses.

Using this letter contract, USAID was in the position of potentially losing its
security services in Iraq on very short notice during the protracted negotiation
process as USAID had no binding commitment to require Kroll to continue to
provide services such as is contained in the required clause at FAR 52.216-25. A
review of communications between the contractor and USAID during this period
showed at least five occasions when the contractor threatened to promptly cease
operations without a satisfactory written contract or letter contract.

In addition, USAID had begun paying the contractor without the benefit of any
clauses in the letter cont ract to clearly protect its interests. From August 2003
until execution of the contract on March 31, 2004, USAID made payments of
approximately $8 million to Kroll for security services. Although the main point
of dispute between Kroll and USAID was the cost of services, Kroll’s risk was
minimized as it billed and received payment from USAID using its proposed
prices with no ne of the billed amount withheld pending contract definitization.
Included in the $8 million was an advance payment of $1.9 million Kroll received
in October 2003 to purchase 17 vehicles. Kroll only delivered 3 of the 17 prepaid
vehicles to USAID/Iraq during negotiations over the next five months and
delivered the remaining vehicles after the final contract was signed.

USAID officials stated that they believed they had a valid letter contract or
alternatively an “implied- in- fact contract” that would have supported a judgment
for performance if Kroll had decided to cease providing services.



5
  FAR clause 52.216-26 “Payments of Allowable Costs Before Definitization” was required
because a cost reimbursement definitive contract was contemplated at the time the letter contract
was prepared.


                                                                                                10
In our opinion and as stated above, this letter contract was not prepared in
accordance with FAR requirements and did not result in a binding agreement.
Accordingly, USAID’s position was weakened during the lengthy negotiation
period. Following FAR requirements protects the Government’s interests and
helps eliminate many contractual disputes and the need for protracted legal
intervention.

       Recommendation No. 2: We recommend that USAID’s Chief
       Acquisition Officer issue a notice to all Bureau of
       Management, Office of Acquisition and Assistance personnel
       reminding them that procurements for USAID activities are
       subject to all federal procurement requirements. Specifically,
       the reminder should cover the proper preparation of letter
       contracts in accordance with the Federal Acquisition
       Regulation along with examples of fully compliant letter
       contracts prepared in the past by USAID.

Potential Funds Control Violations

 Summary: USAID incurred multiple potential funds control violations in
 connection with obtaining security services from Kroll. These potential
 violations included establishing an obligation without the required minimum
 documentation and modifying the contract without providing funding to pay for
 the extended services. These potential funds control violations are a result of
 internal control weaknesses over the obligation of funds. Without an effective
 funds control system, USAID cannot prevent overspending or ensure compliance
 with various laws enacted to control and guide the implementation of federal
 fiscal policy.

Automated Directives System (ADS) 621.3.2 lists the elements of a valid
obligation including that it must be supported by written evidence. Among the
possibilities listed in 31 U.S.C. Section 1501(a), an obligation is to be “supported
by documentary evidence of a binding agreement between the Agency and
another person or entity that is in writing, in a way and form, and for the purpose
authorized by law”. In the case of a contract, ADS 621.3.4c. states that the
minimum documentation required for a valid obligation are the contract
documents “signed by both parties”.

ADS 634.3.5 states that funds control violations may be either statutory or
administrative in nature. An administrative violation results from actions in
violation of Agency funds control policies and procedures below the allotment
level. ADS 634.3.5.2 describes circumstances in which administrative violations
(funds control violations) occur to include obligations incurred prior to the
commitment of funds. In addition, FAR 43.105 states that “The contracting
officer shall not execute a contract modification that causes or will cause an
increase in funds without having first obtained a certification of fund availability,



                                                                                  11
except for modifications to contracts that (1) are conditioned on availability of
funds; or (2) contain a limitation of cost or funds clause”. ADS 634.3.5.3/.4/.5
provide procedures for investigating and reporting on funds control violations and
the applicable penalties.

USAID obligated funds for security servic es in Iraq on August 25, 2003 without
the minimum documentation specified by the ADS. An obligation for $4.5
million was established based on a Standard Form 26 (Award/Contract face sheet)
that was not signed by either USAID or Kroll representatives. Subsequent to this
on September 30, 2003, a letter of authorization to Kroll (unsigned by Kroll) was
added to the supporting documentation for the obligation. The Office of Financial
Management at USAID/Egypt established an obligation to pay for these services
reportedly based on assurances from a USAID contracting officer in Iraq and its
regional legal advisor that a letter of authorization provided sufficient basis for
creating the obligation. The proposed letter contract USAID gave to Kroll—
discussed in the previous audit finding—was not provided as support for the
obligation though it was also not signed by Kroll. Without a contract signed by
both parties, there was no valid obligation in accordance with ADS 621.3.4c.
Prior to signing a contract with Kroll on March 31, 2004, USAID made payments
of approximately $8 million without a valid obligation and accordingly incurred a
potential funds control violation.

Additional potential funds control problems continued into the first contract
modification to extend the contractor’s services. The initial contract providing
security services in Iraq from August 24, 2003 through March 31, 2004 was not
executed until March 31, 2004. The obligated amount for the contract exceeded
the contract amount as of March 31, and Kroll continued to provide its services.
However, there was no contractual instrument that provided for these additional
services beyond the contract period until the expired contract was modified on
April 19, 2004. Without a written and binding agreement for this period there
was no valid obligation and another potential funds control violation.

When a Modification No. 1 was finally signed on April 19, 2004 to extend the
contract from March 31 until May 31, 2004, only $14.5 million in funding had
been obligated although, without a limitation of cost or funds clause, the entire
amount of the contract and the modification ($16,045,328) needed to be obligated
as required by FAR 43.105 to avoid a funds control violation. The contract
modification was not fully funded until May 27, 2004—four days before the
contract extension was completed.

In our opinion, the above potential funds control violations are a result of a
breakdown in internal controls. Therefore, we are making the following
recommendation.




                                                                                12
Recommendation No. 3: We recommend that the Deputy Chief
Financial Officer initiate an inquiry of this series of potential funds
control violations as required by ADS 634.3.5.3 and prepare the
appropriate report on the results of the inquiry as required by ADS
634.3.5.4 to also include identifying corrective measures to be taken to
address the applicable internal control weaknesses.

Armored Vehicles Purchased That Do
Not Meet U.S. Government Standards

    Summary: Kroll used USAID funding to purchase 14 armored vehicles that do
    not meet U.S. diplomatic security standards for these vehicles. USAID/Iraq
    officials and contracting officers authorized the purchase without obtaining the
    approval of or coordinating with USAID’s Office of Security. In addition,
    USAID finalized a fixed price contract with Kroll that included vehicles
    purchase without obtaining adequate documentation to support their actual cost
    to Kroll. As a result, approximately $1.9 million in USAID funding was used to
    purchase vehicles of limited use.

ADS 563 details USAID’s policies and procedures for its armored vehicle
program to ensure these vehicles are purchased by USAID missions in accordance
with Volume 12 of the U.S. Department of State’s Foreign Affairs Manual (FAM)
and The Omnibus Diplomatic Security and Antiterrorism Act of 1986. ADS
563.2 states that USAID’s Office of Security (SEC) has overall responsibility for
the USAID Armored Vehicle Program and USAID missions are responsible for
the procurement, shipment, maintenance, and disposal (with SEC approval) of
Lightly Armored Vehicles (LAVs). ADS 563, as written, does not explicitly
apply to purchases of armored vehicles by contractors using USAID funding.

USAID’s original Request for Proposal called for the contractor to provide all
vehicles needed for the performance of the contract. In its initial cost proposal
dated August 22, 2003, Kroll proposed purchasing 14 armored vehicles and 3
“soft-skinned” vehicles (at a cost of $129,600 and $43,200 each6 ) as part of the
contract. USAID approved the purchase and Kroll was paid its total price of
$1,944,000 for the vehicles on October 22, 2003. According to the contract
eventually signed with Kroll on March 31, 2004, only three of the vehicles had
been delivered for USAID/Iraq’s protection by that date. All 17 of the vehicles
were subsequently delivered and formal title was transferred to USAID/Iraq on
June 28, 2004 as part of modification number 3 to the contract.

There is no record in the contract files to show that the armored vehicle purchase
was ever vetted with SEC or that SEC had ever approved the purchase. Kroll was
permitted to purchase the vehicles—according to the memorandum of negotiation
for the contract—because they would only be used to transport Kroll employees
and not U.S. Government employees (to comply with ADS 563) and because
6
    Includes an 8 percent material handling charge.


                                                                                 13
Kroll reportedly could obtain the vehicles immediately. During the audit, SEC
officials stated they had advised USAID/Iraq officials and contracting officers
that the proposed vehicles did not meet U.S. Government armor requirements and
the vendor was not approved by the Department of State’s Diplomatic Security
but documentation shows that USAID officials had already approved Kroll’s
purchase of the vehicles.

It is unclear why USAID allowed these armored vehicles to be purchased for use
in protecting USAID employees when the employees were not permitted to ride in
the vehicles. Less than three months after all of the vehicles had been delivered,
USAID had title to the vehicles transferred to USAID although reportedly the
vehicles had been effectively incorporated into the overall USAID motor pool
before that. The transfer was done because of the high cost to Kroll of insuring
the vehicles in a war zone. USAID is now responsible for all of the maintenance
and operating expenses of vehicles its own employees cannot use for
transportation.

Another area of concern regarding these vehicles is their cost. A Defense
Contract Audit Agency (DCAA) audit of Kroll’s original cost proposal7 found
that the proposed vehicle costs were based on a quote from another company and
that no cost analysis had been performed by Kroll. No information was made
available on the cost of the vehicles, armor, or the labor charges with armoring the
vehicles. In addition, the material handling charge of 8 percent included in
Kroll’s price for the vehicles was not supported and described by DCAA as
“nothing more than excess profit”. In an e-mail of December 2003, an official in
USAID’s Office of Security stated “In my estimation, a LAV costing
approximately $130,000 is expensive”.

In negotiating the cost of this contract award, the type of contract was changed
from cost reimbursement to a fixed fee contract for commercial services at the
request of Kroll. With this type of contract, USAID was compelled to establish
price reasonableness for this portion (vehicles purchase) of the overall contract.
Although significant negotiating efforts were made concerning the labor costs in
the contract, there was no evidence in the contract files to indicate that the
reasonableness of Kroll’s proposed price for the vehicles was ever substantiated.

In summary, USAID has spent approximately $1.9 million in Iraq reconstruction
funding to purchase vehicles that do not meet U.S. Government standards and
have limited use in Iraq. Further, there is no assurance the vehicles were even
obtained at a fair and reasonable price.

Multiple USAID-funded contractors in Iraq have purchased numerous armored
vehicles to protect their personnel and the life expectancy of these vehicles can be
five years or more—often in excess of the term of the ir contracts. At the close of
these contracts, USAID gains possession of these vehicles and their value is
7
    USAID OIG Report No. E-266-04-002-D, issued November 4, 2003.


                                                                                 14
                significantly diminished if USAID cannot use them to transport its own personnel.
                USAID/Iraq’s contracting office issued a notice in January 2004 requiring all
                contractors/implementing partners in Iraq to procure only armored vehicles that
                meet U.S. Government armoring standards. While the OIG views this as a
                positive step toward preventing the purchase of below-standard armored vehicles
                in the future, we are making the following recommendation to ensure this “lesson
                learned” is applied to present and future USAID activities worldwide:

                       Recommendation No. 4: We recommend that the Office of
                       Security initiate action to amend Automated Directives System
                       563 to extend its application to all USAID-financed armored
                       vehicle purchases including purchases by USAID’s
                       contractors .



Evaluation of   USAID’s Deputy Chief Financial Officer (DCFO), Director of the Office of
Management      Acquisition and Assistance (M/OAA/OD) and the Director of the Office of
Comments        Security ((SEC/OD) prepared a consolidated written response to our draft report.
                This consolidated response is included in its entirety in Appendix II of this report.
Evaluation
                In this response, the responders agreed overall with the recommendations. For
                Recommendation Nos. 1 and 2, the Office of Acquisition and Assistance
                (M/OAA) agreed with these recommendations and is taking action to implement
                them. For Recommendation No. 3, the Office of Financial Management agreed to
                conduct an inquiry into the potential funds control violations and issue the
                appropriate report by March 31, 2005. For Recommendation No. 4, the Office of
                Security concurred with the recommendation and is taking action to implement it.
                Thus management decisions have been reached on all four recommendations.




                                                                                                  15
(This page intentionally left blank)




                                       16
                                                                                    Appendix I



Scope and     Scope
Methodology
              The Information Technology and Special Audits Division of the Office of
              Inspector General in Washington, D.C. conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if USAID complied with federal regulations in awarding a contract
              for security services in Iraq.

              Fieldwork for this audit was conducted at the offices of USAID in Washington,
              D.C. from July 20, 2004 to November 5, 2004. The audit covered the awarding of
              a fixed price contract for commercial items (contract no. 267-C-00-03-00001-00)
              to Kroll Government Services International Inc. (Kroll) on March 31, 2004 and
              three subsequent modifications to the contract.

              In carrying out this audit, we interviewed responsible personnel in USAID’s
              Bureau of Management, Office of Acquisition and Assistance (M/OAA) in
              Washington, D.C. and reviewed records and information contained in M/OAA’s
              contract files relating to the solicitation and awarding of the above contract and
              the initial three modifications. The audit reviewed these records in order to
              determine whether USAID complied with key federal regulations, specified in the
              Federal Acquisition Regulation (FAR), as well as Agency regulations, contained
              in the USAID Acquisition Regulation (AIDAR), pertaining to the awarding of the
              contract. Specifically, we reviewed USAID’s compliance with key regulations
              contained in FAR Parts 6, 9, 12, 15 and 16 and AIDAR 706.3. In addition, we
              determined whether USAID complied with its own policies and procedures as
              contained in its Automated Directives System (ADS).

              The scope of this audit also involved obtaining an understanding of USAID’s
              process for soliciting and awarding contracts which included the following key
              management controls:

                  §   Use of ProDoc document preparation software to ensure solicitation and
                      contract documents contain required clauses.
                  §   Review of Request for Proposals.
                  §   Determination of whether prospective contractors are qualified.
                  §   Documenting of assessments, discussions with prospective contractors
                      evaluation results, and basis for final selections.

              This audit did not involve an assessment of the overall effectiveness of the
              management controls at USAID/Iraq or M/O AA with regards to the solicitation
              and awarding of contracts. In addition, the audit did not assess the reasonableness
              of the overall contract price.




                                                                                              17
                                                                        Appendix I



Methodology

To answer the audit objective, we interviewed M/OAA staff who worked on the
procurement and examined supporting records and information contained in the
contract files at M/OAA in Washington, D.C. to determine whether USAID
complied with selected regulations contained in the FAR and AIDAR in the
solicitation and awarding of the contract for security services in Iraq (contract no.
267-C-00-03-00001-00).

Some of the records and documents examined included the memorandum of
negotiation, Request for Proposal, the contract and modifications, general
correspondence including e- mails, and obligating documents for funding the
contract. These documents were prepared by M/OAA staff in Baghdad and in
Washington, D.C., USAID/Iraq officials, and regional legal and finance office
staff in USAID/Egypt.

We also interviewed USAID staff in the Bureau for Legislative and Public
Affairs, the Office of General Counsel and the Office of Security regarding
various aspects of the audit findings and this contract award.

A materiality threshold was not established for this audit given the nature of the
audit objective which involved assessing procedural compliance with applicable
federal regulations in the awarding of this Iraq contract.




                                                                                  18
                                                                              Appendix II



Management
Comments




             U.S. AGENCY FOR
               INTERNATIONAL
               DEVELPMENT



             MEMORANDUM
                                                                     December 22, 2004

             TO:           AIG/A, Bruce N. Crandlemire

             FROM:         Michael F. Walsh, M/OAA/OD /s/
                           David Ostermeyer, DCFO /s/
                           Harry Manchester, SEC/OD /s/

             SUBJECT:      Consolidated Response to USAID Audit Report No. A-267-05-
                           00X-P USAID's Compliance with Federal Regulations in
                           Awarding the Contract for Security Services in Iraq

                     This memorandum is intended as a consolidated response to the subject
             audit report.

                     Recommendation No. 1 - M/ OAA accepts this recommendation without
             further comment. A notice by the Procurement Executive will be issued to
             Contracting Officers worldwide prior to March 30, 2005.

                     Recommendation No. 2 - M/OAA accepts this recommendation without
             further comment. A notice by the Procurement Executive will be issued to
             Contracting Officers worldwide prior to March 30, 2005.

                     Recommendation No. 3 - M/OAA contends a valid contract was in place.
             Nevertheless, the Office of Financial Management will conduct an inquiry in
             accordance with ADS 634.3.5.3 and issue the appropriate report as required by
             ADS 634.3.5.4 by March 31, 2005. The Office of Financial Management will
             also take the appropriate measures to address any internal control weaknesses
             identified as a result of the inquiry.




                                                                                         19
                                                                    Appendix II
        Recommendation No. 4 - The Office of Security (SEC) finds the audit
factually correct. SEC concurs with the recommendation and will initiate an
amendment to ADS 563 by March 31, 2005 to ensure "armor vehicles purchase
with USAID Bureau or Mission funds for contractors are DS approved and
remain the property of the Bureau or Mission until the threat no longer justifies
armor vehicle usage. At that time, SEC will have the authority to reassign or
transfer the FAV to another USAID mission based on operational and security
requirements". SEC will pursue additional ADS revisions to assure adequate
oversight.




                                                                              20
